Audit Report No. D-2011-RAM-003               November 22, 2010




         American Recovery and Reinvestment Act-
    Modernization of Third Floor Utilities - Center for Health
           Promotion and Preventative Medicine,
            Aberdeen Proving Ground, Maryland
Additional Copies
To obtain additional copies of this report, visit the Web site of the Department of Defense
Inspector General at http://www.dodig.mil/recovery/index.html or contact the Secondary
Reports Distribution Unit at (703) 604-8937 (DSN 664-8937) or fax (703) 604-8932.

Suggestions for Audits
To suggest or request audits, contact the Office of the Deputy Inspector General for
Auditing by phone (703) 604-9142 (DSN 664-9142), by fax (703) 604-8932, or by mail:

                      ODIG-AUD (ATTN: Audit Suggestions)
                      Department of Defense Inspector General
                      400 Army Navy Drive (Room 801)
                      Arlington, VA 22202-4704




Acronyms and Abbreviations
APG                   Aberdeen Proving Ground
CHPPM                 Center for Health Promotion and Preventative Medicine
DHP                   Defense Health Program
DPW                   Directorate of Public Works
MEDCOM                U. S. Army Medical Command
OMB                   Office of Management and Budget
TMA                   TRICARE Management Activity
USACE                 U.S. Army Corps of Engineers
                                   INSPECTOR GENERAL 

                                  DEPARTMENT OF DEFENSE 

                                    400 ARMY NAVY DRIVE 

                               ARLINGTON , VIRG INIA 22202-4704 





                                                                    November 22, 2010

MEMORANDUM FOR THE ASSISTANT SECRET ARY OF DEFENSE (HEALTH
                     AFFAIRS)
                   AUDITOR GENERAL, DEPARTMENT OF THE ARMY


SUBJECT: American Recovery and Reinvestment Act- Modernization of Third Floor
         Utilities- Center for Health Promotion and Preventative Medicine, Aberdeen
         Proving Ground, Maryland (Audit Report No . D-2011-RAM-003)

We are providing this report for your information and use. We performed this audit in
response to the requirements of Public Law 111-5, "American Recovery and
Reinvestment Act of2009," February 17,2009 (Recovery Act.) TRICARE Management
Activity and U.S. Army Medical Command personnel did not properly plan and support
the cost or scope of the Recovery Act project to ensure appropriate use of Recovery Act
funds. However, by cancelling the Recovery Act project, TRICARE Management
Activity officials made $15.7 million in Recovery Act funds available for other projects.
No written response to the draft report was required, and none was received. Therefore,
we are publishing this report in final form.

We appreciate the courtesies extended to the staff. Please direct questions to Mr. Michael
A. Joseph at (757) 872-4698.


                                           a~L~~~CQM
                                             Alice F. Carey            U
                                             Assistant Inspector General
                                             Readiness, Operations, and Support
Audit Report No. D-2011-RAM-003 (Project No. D2009-D000LF-0245.006)           November 22, 2010


                   Results in Brief: American Recovery and
                   Reinvestment Act—Modernization of Third
                   Floor Utilities—Center for Health
                   Promotion and Preventative Medicine,
                   Aberdeen Proving Ground, Maryland


What We Did                                            What We Recommend
Our overall objective was to determine whether         Because the Recovery Act project was cancelled
DoD appropriately planned and implemented              during the audit, this report contains no
Public Law 111-5, “American Recovery and               recommendations.
Reinvestment Act of 2009 (Recovery Act),”
February 17, 2009. Specifically, we reviewed           Management Comments
the planning and funding for the Recovery Act          We provided a draft of this report on
project, “Modernization of Third Floor                 September 28, 2010. No written response to the
Utilities—Center for Health Promotion and              draft report was required, and none was
Preventive Medicine,” at Aberdeen Proving              received. Therefore, we are publishing this
Ground, Maryland, to determine whether the             report in final form.
efforts of TRICARE Management Activity
(TMA) and U. S. Army Medical Command                     Figure 1: Piping at the Center for Health

(MEDCOM) personnel complied with the                        Promotion and Preventive Medicine

Recovery Act’s requirements, Office of
Management and Budget (OMB) Memorandum
M-09-10, “Initial Implementing Guidance for
the American Recovery and Reinvestment Act
of 2009,” February 18, 2009, and subsequent
related guidance.

What We Found
TMA personnel distributed Recovery Act funds
in a timely manner and consistent with OMB
guidance, but TMA and MEDCOM personnel
did not properly plan and support the cost or
scope of the Recovery Act project to ensure
appropriate use of Recovery Act funds.                 Source: Directorate of Public Works, Aberdeen
However, by cancelling the Recovery Act                Proving Ground, Maryland
project, TMA officials made $15.7 million in
Recovery Act funds available for other projects.




                                                   i
Table of Contents

Introduction                                                                 1


      Objective                                                              1

      Background                                                             1

      Review of Internal Controls                                            2


Audit Results                                                                3


      Planning: TMA and MEDCOM Did Not Properly Plan the Project; However

       TMA Later Cancelled It                                                3


      Funding: TMA Distributed Recovery Act Funds in a Timely Manner         4


Appendix                                                                     5


      Scope and Methodology                                                  5

             Use of Technical Assistance                                     6

             Use of Computer-Processed Data                                  6

             Prior Audit Coverage                                            6

Introduction
Objective
Our overall objective was to evaluate DoD’s implementation of Public Law 111-5,
“American Recovery and Reinvestment Act of 2009,” February 17, 2009 (Recovery Act).
Specifically, we reviewed the planning and funding phases for Recovery Act Project 53,
“Modernize Third Floor Utilities—Center for Health Promotion and Preventative
Medicine (CHPPM),” (the Recovery Act project) at Aberdeen Proving Ground (APG),
Maryland, to determine whether TRICARE Management Activity (TMA) and U.S. Army
Medical Command (MEDCOM) personnel complied with the Act’s requirements, Office
of Management and Budget (OMB) Memorandum M-09-10, “Initial Implementing
Guidance for the American Recovery and Reinvestment Act of 2009,” February 18,
2009, and subsequent related guidance.

The Recovery Act and OMB guidance require projects to be monitored and reviewed.
We grouped these requirements into the following four phases: (1) planning, (2) funding,
(3) execution, and (4) tracking and reporting. We did not review the project execution
and tracking and reporting phases because the project did not progress beyond the
planning and funding phases. See the appendix for a discussion of our scope and
methodology.

Background
In passing the Recovery Act, Congress provided supplemental appropriations to preserve
and create jobs; promote economic recovery; assist those most impacted by the recession;
provide investments to increase economic efficiency by spurring technological advances
in science and health; and invest in transportation, environmental protection, and other
infrastructure. The Recovery Act also established unprecedented efforts to ensure the
responsible distribution of funds for its purposes and to provide transparency and
accountability of expenditures by informing the public of how, when, and where tax
dollars were being spent. Further, the Recovery Act states that the President and heads of
the Federal departments and agencies were to expend these funds as quickly as possible,
consistent with prudent management.

DoD received approximately $7.16 billion 1 in Recovery Act funds for projects that
support the Act’s purposes. In March 2009, DoD released expenditure plans for the
Recovery Act, which listed DoD projects that will receive Recovery Act funds. The
Assistant Secretary of Defense for Health Affairs received $400 million of Recovery Act
funds for Defense Health Program (DHP) Operations and Maintenance projects. Of the
$400 million, DoD allocated $220 million for Army projects; TMA personnel allocated
$15.7 million to the Recovery Act project.


1
  DOD originally received about $7.4 billion; however, Public Law 111-226, Title III, “Rescissions,”
rescinded $260.5 million on August 10, 2010. The $7.16 billion does not include $4.6 billion for U.S.
Army Corps of Engineers civil works projects.



                                                    1

CHPPM is a research facility that includes mechanical and electrical spaces, a laboratory,
laboratory support, animal housing, animal support, and storage and administrative
spaces. According to the DD Form 1391, “Military Construction Project Data,” August
2007, the electrical, mechanical, ventilation, plumbing, and control systems were
originally installed in 1967, and these systems were deteriorating or had deteriorated.

APG Directorate of Public Works (DPW) personnel originally planned to renovate
CHPPM using a phased approach. In July 2007, APG DPW personnel submitted a
DA Form 4283, “Facilities Engineering Work Request,” to renovate CHPPM. In
September 2008, U.S. Army Corps of Engineers-Mobile District personnel issued a
delivery order for electrical, mechanical, ventilation, plumbing, and control repairs. With
the availability of Recovery Act funding, TMA personnel funded the Recovery Act
project, a modernization of only the third floor utilities.

Review of Internal Controls
DoD Instruction 5010.40, “Managers’ Internal Control (MIC) Program Procedures,”
July 29, 2010, requires DoD organizations to implement a comprehensive system of
internal controls that provides reasonable assurance that programs are operating as
intended and to evaluate the effectiveness of the controls. We identified an internal
control weakness in the administration of the Recovery Act project as defined by DoD
Instruction 5010.40. Specifically, TMA and MEDCOM personnel did not implement
adequate internal controls over planning the Recovery Act project. We discuss these
issues in the Audit Results section. Because TMA cancelled the Recovery Act project,
no recommendation is necessary to correct this weakness. We will provide a copy of the
report to the senior officials responsible for internal controls at TMA and MEDCOM.




                                             2

Audit Results
TMA and MEDCOM personnel did not properly plan and support the cost or scope of the
Recovery Act project. MEDCOM personnel originally provided a DD Form 1391 and
other historical studies that did not support the Recovery Act project’s scope or its cost of
$15.7 million. As a result, TMA and MEDCOM personnel did not ensure that Recovery
Act funds would be appropriately used. However, by cancelling the Recovery Act
project, TMA officials made $15.7 million in Recovery Act funds available for other
projects. Additionally, TMA personnel distributed Recovery Act funds consistent with
OMB guidance.

Planning: TMA and MEDCOM Did Not Properly Plan the
Project; However TMA Later Cancelled It
TMA and MEDCOM personnel did not properly plan and support the Recovery Act
project to ensure appropriate use of Recovery Act funds because they failed to clearly
define and limit the scope to the Recovery Act project in documents used to justify the
project.

Documentation Provided Did Not Clearly Define Cost and Space
Requirements Specific to the Recovery Act Project
APG DPW personnel provided a November 2008 site survey report as justification for
the modernization of CHPPM. The survey report provided in-depth details on the
condition of the CHPPM building, revealed the building’s deficiencies, and projected
safety and health hazards. APG DPW personnel also provided historical studies that
included cost and space requirements for the entire CHPPM renovation. The studies
included a facilities engineering work request prepared in 2007; the
“USACHPPM/U.S. Army Medical Research Institute for Chemical Defense Synergy
Master Plan,” September 2006; the “Master Facility Plan,” April 2002; and an “Electrical
Feasibility Study,” July 2007. Although these studies supported the need for renovations,
they did not clearly define the costs or space requirements specific to the limited scope of
the Recovery Act project.

DD Form 1391 Lacked Support for the Recovery Act Project’s
Scope and Cost
In July 2009, MEDCOM personnel provided a DD Form 1391, August 2007, that did not
support the Recovery Act project’s scope or cost of $15.7 million. Also, the August 2007
DD Form 1391 valued at $17.5 million, included 67,136 square feet of renovations for
the entire CHPPM building, not the portion of the building covered by the Recovery Act
project. MEDCOM personnel did not prepare a DD Form 1391 to specifically support
the scope of work to the third floor utilities as indicated in the Recovery Act Facilities
Sustainment, Restoration, and Modernization Program Plan. In September 2009, DoD
Office of the Inspector General personnel discussed the lack of supporting documentation
and the scope of the August 2007 DD Form 1391 with TMA and MEDCOM personnel.
Following our discussion, in December 2009, MEDCOM personnel provided an updated



                                             3

DD Form 1391 that cited 22,400 square feet of renovations attributable to the third floor
at a cost of $15.7 million. Although MEDCOM personnel updated the DD Form 1391
for the Recovery Act project’s requirements, it did not include an evaluation of costs or a
methodology used to generate costs, benefits, and risks of any viable alternatives. As a
result, MEDCOM personnel were unable to support the Recovery Act project’s cost of
$15.7 million.

TRICARE Management Activity Personnel Cancelled the
Recovery Act Project
On April 21, 2010, TMA personnel initiated cancellation of the Recovery Act project due
to excessive cost escalation. The reprogramming action further stated that project costs
were approaching 90 percent of the facility’s present replacement value, and the
investment was not considered a prudent use of Recovery Act funds. Escalating costs
were attributable to mechanical and electrical upgrades and structural repairs on the first
and second floors. The first and second floor repairs are integral to the completion of the
third floor modernization. As part of their reprogramming action, TMA officials
identified additional projects eligible for Recovery Act funding. The reprogramming
action was consistent with Office of the Secretary of Defense (Comptroller), “Project
Cost Variations during Execution of American Recovery and Reinvestment Act
Expenditure Plans for Infrastructure Investments,” May 7, 2009, and “Revision to Policy
Regarding Project Cost Variations during Execution of American Recovery and
Reinvestment Act Expenditure Plans for Infrastructure Investments,” January 11, 2010.

Funding: TMA Distributed Recovery Act Funds in a
Timely Manner
TMA personnel distributed Recovery Act funds for the Recovery Act project in a timely
manner, and the funding documents properly identified a Recovery Act designation.
Funding documents showed that the TMA personnel transferred funds to U.S. Army
Corps of Engineers (USACE) personnel on April 30, 2009, and May 12, 2009. As part of
the May 12, 2009, funding authorization document, TMA personnel provided a list of
projects that USACE personnel would execute, including the Recovery Act project. The
funding authorization documents agreed with the project’s estimates reported in the
Recovery Act DoD expenditure plans.




                                             4

Appendix. Scope and Methodology
We conducted this audit from June 2009 through September 2010 in accordance with
generally accepted government auditing standards. Generally accepted government
auditing standards require that we plan and perform the audit to obtain sufficient,
appropriate evidence to provide a reasonable basis for our conclusions based on our audit
objectives. We believe that the evidence obtained provides a reasonable basis for our
conclusions based on our audit objectives.

To review DoD’s implementation of plans for the Recovery Act, we audited the planning
and funding of the $15.7 million Recovery Act project at Aberdeen Proving Ground,
Maryland, to ensure TMA and MEDCOM personnel’s efforts complied with Recovery
Act requirements, OMB guidance, the Federal Acquisition Regulation, and DoD
implementing guidance. Specifically, we determined whether:

   •	 the selected project was adequately planned to ensure the appropriate use of
      Recovery Act funds (Planning);
   •	 funds were awarded and distributed in a prompt, fair, and reasonable manner
      (Funding);
   •	 contracts awarded were transparent, competed, and contained required Recovery
      Act clauses identified in the Federal Acquisition Regulation (Project Execution);
      and
   •	 recipients’ use of funds was transparent to the public and the benefits of the funds
      were clearly, accurately, and timely reported (Reporting).

We did not review the project execution and tracking and reporting phases because the
project did not progress beyond the planning and funding phases.

We interviewed personnel from TMA, MEDCOM, USACE-Mobile District, and APG.
We reviewed documentation including the DD 1391s, the draft scope of work, and the
“Master Facility Plan.” We also made observations during visits to the CHPPM building.
We reviewed project files for requirements, justifications, and funding documents. We
also reviewed Federal, DoD, and Army guidance, and compared this guidance with our
audit results.

DoD Office of the Inspector General is also reviewing two other Recovery Act projects at
APG. The results of these projects will appear in a separate report. U. S. Army Audit
Agency also reviewed three Recovery Act projects at APG and issued report
A-2010-0127-FFE, “American Recovery and Reinvestment Act of 2009, Aberdeen
Proving Ground, Maryland,” July 1, 2010.




                                            5

Use of Technical Assistance
Before selecting DoD Recovery Act projects for audit, the Quantitative Methods and
Analysis Division (QMAD) of the DoD Office of the Inspector General analyzed all DoD
agency-funded projects, locations, and contracting oversight organizations to assess the
risk of waste, fraud, and abuse associated with each. QMAD selected most audit projects
and locations using a modified Delphi technique, which allowed QMAD to quantify the
risk based on expert auditor judgment and other quantitatively developed risk indicators.
QMAD used information collected from all projects to update and improve the risk
assessment model. QMAD selected 83 projects with the highest risk rankings; auditors
chose some additional projects at the selected locations.

QMAD did not use classical statistical sampling techniques that would permit
generalizing results to the total population because there were too many potential
variables with unknown parameters at the beginning of this analysis. The predictive
analytic techniques employed provided a basis for logical coverage not only of Recovery
Act dollars being expended, but also of types of projects and types of locations across the
Military Services, Defense agencies, State National Guard units, and public works
projects managed by USACE.

Use of Computer-Processed Data
We did not rely on any computer processed data as a basis for our conclusions on this
project.

Prior Audit Coverage
The Government Accountability Office, the DoD Office of the Inspector General and the
Military Departments have issued reports and memoranda discussing DoD projects
funded by the Recovery Act. You can access unrestricted reports at
http://www.recovery.gov/accountability.




                                             6

